HHS/OIG, Audit -"Review of Related-Party Management Fees Reported by Four Medicare+Choice Organizations in a
Chain,"(A-06-01-00033)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Related-Party Management Fees Reported by Four Medicare+Choice Organizations in a Chain," (A-06-01-00033)
July 26, 2004
Complete
Text of Report is available in PDF format (331 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether related-party management fees that four Medicare+Choice organizations
(MCOs) reported in their 1999 financial disclosure reports and 2001 proposals were based on approximately allocated, actual
costs.  Because these MCOs were wholly owned subsidiaries of United HealthCare Services, Inc. (United), the MCOs and
United were "related parties."  The MCOs' 2001 proposals were based on 1999 cost data, including costs reported
on their financial disclosure reports.
For more than $100 million of related-party management fees:  (1) the MCOs did not show in their
financial disclosure reports that the related-party management fees did not exceed the costs that would have been incurred
with an unrelated party and (2) the MCOs did not have effective procedures to develop and compile data on the costs of
their operations.  As a result, we could not determine whether the administrative costs reported in the proposals
represented a fair distribution of costs.  Among other things, we recommended that CMS evaluate, based on financial
disclosure requirements, the four MCOs' process for developing administrative costs in their proposals and apply administrative
sanctions, if appropriate, against these and other United plans, and develop review procedures to ensure that MCOs are
in compliance with related-financial requirements of CFR § 422.516.